HHS/OIG-Audit--"Payment Edits for Outpatient Psychiatric Services at Medicare Contractors, (A-01-98-00520)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Payment Edits for Outpatient Psychiatric Services at Medicare Carriers," (A-01-98-00520)
January 21, 1999
Complete
Text of Report is available in PDF format (681 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare limits reimbursement for certain outpatient mental health services to 62.5 percent of Medicare allowed charges.
Our final report points out that the Medicare carrier serving Maine, Massachusetts, New Hampshire, and Vermont failed to
apply this limitation to some services to which it applied. As a result, we estimate the carrier overpaid providers approximately
$1.0 million in Calendar Year 1996. We recommended that the Health Care Financing Administration (HCFA) initiate overpayment
recovery actions, appraise all Medicare carriers of this potential payment error, and take the necessary steps to prevent
future errors from occurring. The HCFA concurred with our findings and recommendations.